Audit of USAID/Egypt’s Participant Training
Activities

Audit Report No. 6-263-04-004-P
May 18, 2004




                   Cairo, Egypt
(This Page Intentionally Left Blank)
May 18, 2004


MEMORANDUM
FOR:           USAID/Egypt Director, Kenneth C. Ellis

FROM:          RIG/Cairo, David H. Pritchard /s/

SUBJECT:       Audit of USAID/Egypt’s Participant Training Activities
               (Report No. 6-263-04-004-P)

This memorandum transmits our final report on the subject audit. We considered
your comments to the draft report and have included them in their entirety as
Appendix II.

This report includes three recommendations to assist the Director, USAID/Egypt to
improve controls and strengthen USAID/Egypt’s participant training activities.
Based on your comments to the draft report, we consider management decisions to
have been made on all three recommendations but final actions are pending.
USAID/Egypt should coordinate final action on the recommendations with
USAID’s Office of Management Planning and Innovation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                    1
(This Page Intentionally Left Blank)




                                       2
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................5

           Audit Objectives ..........................................................................................7

           Audit Findings .............................................................................................7

                      Has USAID/Egypt complied with selected requirements for
                      administering participant training conducted in the United
                      States? ..............................................................................................7

                                 Participant Training Files Were Not Complete ...................9

                      What have been the non-returnee rates for overseas
                      participants from USAID/Egypt who were trained in the
                      United States, and did USAID/Egypt take appropriate
                      actions when participants failed to return to their home
                      countries? .......................................................................................10

                                 USAID/Egypt Needed to Strengthen Its System of
                                 Tracking Non-Returnees....................................................10

                                 USAID/Egypt Needed to Collect Training Costs
                                 from Non-Returnees...........................................................11

                      What additional actions should USAID/Egypt take to meet
                      new requirements for selecting, monitoring, and reporting
                      on participants training in the United States? ...............................12

           Management Comments and Our Evaluation............................................13

           Appendix I-Scope and Methodology .........................................................15

           Appendix II-Management Comments........................................................17




                                                                                                                                3
(This Page Intentionally Left Blank)




                                       4
Summary of   The objectives of this audit were to determine (1) if USAID/Egypt complied with
Results      selected requirements for its participant training program; (2) if any participant
             trainees from Egypt did not return from the United States and, if so, what actions
             were taken by USAID/Egypt; and (3) what additional actions the Mission should
             take to meet new participant training program requirements (see page 7).

             USAID/Egypt complied with three of four selected requirements for administering
             participant training. The three requirements that USAID/Egypt met were to (1)
             identify the roles of personnel for entering, verifying and approving participant
             trainee data as required by the visa compliance guidance; (2) use the USAID’s
             Training Results and Information Network database; and (3) ensure that all
             participants sent to the U.S. for training were issued a J-11 visa as required by
             USAID guidance. (see page 7). Further to its credit, USAID/Egypt reported on 21
             non-returnees while sending approximately 3,700 participants to the U.S. from
             October 1999 to April 2003. (see page 10). Additionally, USAID/Egypt took several
             positive steps to ensure that the new requirements to more actively manage
             participant training programs are met (see page 12).

             However, certain problems continued to affect the overall success of the program.
             These included a lack of sufficient documentation (see page 9); unreliable
             monitoring of participant trainees’ return to their home country and reporting of non-
             returnees (see page 10); and incomplete efforts to collect debts arising from
             participants not returning to their home country (see page 11).

             To help USAID/Egypt strengthen its participant training program, this report
             recommends that the Mission Director (1) develop and implement procedures to
             ensure that training files contain evidence of participants’ Individual Taxpayer
             Identification Numbers (see page 9), (2) develop and implement procedures to verify
             and document participants’ return to Egypt (see page 11), and (3) recover the
             amount of $230,173 plus interest from the non-returnees who have not previously
             been billed (see page 12).

             In responding to our draft report, the Mission agreed with the three
             recommendations. We consider that management decisions have been made on all
             three recommendations but final actions are pending.

             Appendix II contains USAID/Egypt’s comments on our draft report (see page 17).

Background   Each year, USAID’s worldwide participant training programs send approximately
             6,000 people to the United States. 2 According to USAID, “participants” may be

             1
               J-1 nonimmigrant visas are issued to foreign nationals who have been selected by a sponsor
             designated by the U.S. State Department to participate in an exchange visitor program in the
             United States.
             2
               Participant training can also be conducted in-country or in a third country .


                                                                                                            5
host country residents or foreign nationals taking part in a structured learning
activity. Participant training is considered as either short-term or long-term (about
nine months or more) which may include a range of learning activities such as
study tours, observational tours, conferences, and academic training. USAID’s
participant trainee data are collected and reported through USAID’s Training
Results and Information Network database that a contractor developed,
maintained, and managed.

As a result of homeland security concerns and the recent attacks on the U.S.,
increased attention is now given to all visitors to the U.S., including those for
participant training activities. In addition, new regulations by the U.S.
Immigration and Naturalization Service 3 and the Department of State changed and
established more specific procedures for issuing J-1 visas; monitoring exchange
visitors; and recording such status changes such as new addresses, altering
courses, etc.

Also, the U.S. Immigration and Naturalization Service developed its own
database—the Student and Exchange Visitor Information System, which required
implementation by all sponsors on February 15, 2003, to input data requests for J-
1 visa applications and print them. With timely input and accurate data, this
system is designed to track the status and location of all foreign students in the
U.S. on three different types of visas, although USAID will only use the J-1 visa
for its participant training activities. The U.S. Immigration and Naturalization
Service further determined that all students in the U.S., as of August 1, 2003, will
be included in the Student and Exchange Visitor Information System, including
those who were in the U.S. before the initial implementation of this system on
February 15, 2003.

To implement these changes, USAID published a document titled “The Complete
Guide-USAID Visa Compliance” in April 2003. This guidance instituted more
centralized control over USAID’s participant training activities. Under the new
process, each participant trainee’s sponsor enters information for J-1 visa
application into USAID’s Training Results and Information Network. The
information in USAID’s Training Results and Information Network is
automatically fed into USAID’s Visa Compliance System, a secure web-based
system which facilitates data interchange between USAID’s Training Results and
Information Network and Student and Exc hange Visitor Information System. A
U.S. citizen on USAID’s staff at the mission level must review the application
data and forward the approved data to USAID/Washington for submission to
Student and Exchange Visitor Information System.

USAID/Egypt’s Human Development and Democracy Office manages the
Mission’s participant training program. A U.S. personal services contractor and

3
 In March 2003, the visa processing responsibilities of the U.S. Immigration and Naturalization
Service (INS) were transferred to the U.S. Department of Homeland Security’s Bureau of
Citizenship and Immigration Services.


                                                                                                  6
                 Foreign Service National training specialist oversee the training activities,
                 including approving data in USAID’s Visa Compliance System, facilitating the
                 visa process, and maintaining participant records. A contracted firm assists the
                 Mission in implementing participant training in Egypt, as well as supporting and
                 monitoring participants while they are in the United States. This firm is
                 responsible for meeting with participants, entering and approving data in
                 USAID’s Training Results and Information Network, maintaining training
                 records, and monitoring participants in the U.S. and upon return to Egypt.
                 Between fiscal year 2000 and 2003, 3,678 participant trainees from Egypt have
                 been sent to the United States for 4,139 training courses, funded partly or wholly
                 by USAID.


Audit            We conducted the audit at USAID/Egypt as part of a world-wide audit of
Objectives       USAID’s participant training activities.

                 The audit was designed to answer the following objectives relating to participant
                 training activities:

                 •      Has USAID/Egypt complied with selected requirements for administering
                        participant training conducted in the United States?

                 •      What have been the non-returnee rates for overseas participants from
                        USAID/Egypt who were trained in the United States, and did
                        USAID/Egypt take appropriate actions when participants failed to return
                        to their home countries?

                 •      What additional actions should USAID/Egypt take to meet new
                        requirements for selecting, monitoring, and reporting on participants
                        training in the United States?

                 Appendix I discusses the audit's scope and methodology.


Audit Findings   Has USAID/Egypt complied with selected requirements for administering
                 participant training conducted in the United States?

                 USAID/Egypt complied with three of the four selected requirements for
                 administering participant training conducted in the United States.

                 The three requirements that USAID/Egypt met were to (1) identify the roles of
                 personnel for entering, verifying and approving participant trainee data as
                 required by the visa compliance guidance, (2) use the USAID’s Training Results




                                                                                                 7
and Information Network database, and (3) ensure that all participants sent to the
U.S. for training were issued a J-1 4 visa as required by USAID guidance.

In April 2003, USAID published a document titled “The Complete Guide-USAID
Visa Compliance”. The guide defined the roles that needed to be filled by
Mission personnel and implementing partners to administer participant training
events. The guide defined three roles that were applicable to the Mission—data
entry, data verification, and participant training application approval.

Pursuant to this guide, USAID/Egypt identified and assigned one staff member, a
United States citizen, to the participant training application approval role. The
Mission appropriately assigned data entry and data verification roles to the
contractor who implemented the participant training program.

As required by the USAID Automated Directives System (ADS), the Mission
used the Training Results and Information Network database to store data for all
USAID- funded participants traveling to the United States for training. 5

USAID/Egypt and contractor staff involved with the participant training program
were well trained in their respective Training Results and Information Network
database roles. The staff also had good working knowledge of the USAID system
and its interface with the contractor’s system.

ADS 253.5.6(a) requires any foreign national attending a training activity in the
United States, who is sponsored fully or in part with United States government
funds, to enter the United States on a J-1 visa. This requirement applies to
training of any length.

USAID/Egypt and the U.S. Embassy in Cairo (where J-1 visas are processed)
were vigilant regarding issuance of J-1 visas for participant trainees. Before a
participant was issued a visa, he or she had to satisfactorily pass a screening
process performed by a consular officer at the U.S. Embassy, Cairo. The
screening process included a personal interview and a check for adverse
information in United States government records. Of the 42 visa files sampled for
participant trainees from fiscal years 2002 and 2003, a J-1 visa was approved for
all participants traveling to the United States.

Despite these accomplishments, however, USAID/Egypt did not comply with
another ADS requirement related to the documentation of participant trainees’
taxpayer identification numbers. The following section discusses this issue.

4
  J-1 nonimmigrant visas are issued to foreign nationals who have been selected by a sponsor
designated by the U.S. State Department to participate in an exchange visitor program in the
United States.
5
  However, the data was not entered directly into the USAID database. Rather, it was entered into
a database owned and managed by the Mission’s centralized participant training contractor and
then transferred in batches to USAID’s Training Results and Information Network database.


                                                                                                8
Participant Training Files Were Not Complete

USAID/Egypt did not document one of four requirements tested in the Mission’s
participant training files. This occurred because the Mission relied on its
contractor in Washington to maintain this information. As a result, none of the
participant’s files at USAID/Egypt contained evidence of their Social Security
Number or Individual Taxpayer Identification Number as required by ADS 253.

ADS 253.5.6 requires: (1) the purchase of health and accident insurance coverage,
(2) certification of medical eligibility, except when a health and accident coverage
policy has been purchased for training programs of less than 31 days; and (3)
evidence of proficiency in English. According to ADS 253, all J-1 visa holders
assisted with funds from U.S. sources, including USAID, are subject to the
Internal Revenue Service requirement of filing U.S. tax returns, whether or not
tax payments are due. Additionally, ADS E253.5.2b further says that all
participants without a Social Security Number must be provided with an
Individual Taxpayer Identification Number.

USAID/Egypt’s files for the sample of 42 participants who were sent to the U.S.
for training contained evidence of insurance coverage, medical eligibility, and
English proficiency. However, none of the files contained evidence that a Social
Security Number or Individual Taxpayer Identification Number was obtained.

This situation occurred because USAID/Egypt’s contractor maintained this
information in the United States. The Mission’s contractor in the United States
was responsible for filing tax returns for participants. As a result, none of the
participant’s files at USAID/Egypt contained evidence of the participant’s Social
Security Number or Individual Taxpayer Identification Number as required by
ADS 253. As a Social Security Number or Individual Taxpayer Identification
Number is useful in recovering USAID training funds from participants should
they not return from training, the Mission’s claim collection efforts may be
impeded by the participant’s files lacking taxpayer identification numbers.

       Recommendation No. 1: We recommend that the Director,
       USAID/Egypt develop and implement procedures to ensure
       that training files contain evidence of participants’ Individual
       Taxpayer Identification Numbers.




                                                                                  9
What have been the non-returnee rates for overseas participants from
USAID/Egypt who were trained in the United States, and did
USAID/Egypt take appropriate actions when participants failed to
return to their home countries?

For the period from October 1998 to April 2003, USAID/Egypt reported 21 non-
returnees. Two attended long term training (greater than nine months) and 19
attended short term training. Out of approximately 3,700 foreign nationals who
were sent to the United States as participant trainees under USAID/Egypt
sponsored programs from October 1999 through April 2003, 18 were reported as
non-returnees. This was a non-returnee rate of approximately 0.5 percent over the
period. However, there was a risk that more non-returnees existed because the
Mission did not have a reliable system to track and report non-returnees.

In 11 of the 21 non-returnee cases, USAID/Egypt issued bills of collection to the
participants.

The following sections discuss the vulnerability of the Mission’s reporting system
and the Mission’s need to recover the cost of training for all non-returnees.

USAID/Egypt Needed to Strengthen Its System
of Tracking Non-Returnees

Contrary to ADS 253, USAID/Egypt’s system of tracking non-returnees was not
reliable. This occurred because the Mission did not (1) always follow up with the
participants or their employers to ensure that the participants returned to Egypt
after their training or (2) establish follow- up procedures designed to track non-
returnees. Without adequate tracking, the Mission had no assurance that
participants returned to Egypt.

ADS 253.5.2c says that all sponsoring units must track participants for timely
return to their home country and to report those participants that do not return. A
participant becomes a non-returnee upon exceeding the return date agreed to by
all parties in the stakeholder compact/conditions of training. The Mission is
required to report all non-returnees to USAID/Washington in writing.

USAID/Egypt reported 21 non-returnees to USAID/Washington, but there was a
risk that more existed because of the Mission’s unreliable tracking system. The
Mission’s contractor did not have a process to verify and document the return of
participants to Egypt. According to the contractor, although participants were
asked to present themselves to the Mission’s contractor upon their return, they did
not always comply with this request. If the participant did not present themselves
to the contractor as requested, the contractor would not report the participant as a
non-returnee unless the contractor had certain knowledge that the participant had
not returned to Egypt. Thus, if participants notified the contractor that they had



                                                                                 10
not returned to Egypt, they would be reported as non-returnees. If the participant
did not return and did not notify the contractor of this, he or she would not be
reported as a non-returnee. As a result, we could not confirm that the 21
participants identified as non-returnees represented the total number of non-
returnees.

Without reliable follow-up procedures in place, the Mission could not be assured
that participants return to Egypt after training. Additionally, USAID was required
to report non-returnees to the U.S. Department of Homeland Security. For
USAID to do so, USAID/Egypt needed to establish procedur es to reliably
determine and report which participants have not returned to Egypt. Therefore,
we make the following recommendation:

       Recommendation No. 2: We recommend that the Director,
       USAID/Egypt develop and implement procedures to verify and
       document participants’ return to Egypt in accordance with
       Automated Directives System Chapter 253.

USAID/Egypt Needed to Collect Training Costs
from Non-Returnees

USAID/Egypt issued bills of collection to only 11 of 21 non-returnees because the
Mission was unaware of the non-returnees’ address. However, lack of knowledge
of a non-returnee’s current address is not an impediment to issuing a bill of
collection for training costs when participants did not honor their agreement to
return to Egypt. Therefore, the Mission should issue bills of collection for all
non-returnees.

A basic premise of the participant training program is that trainees agree to
complete training and return to their home country. Those that do not return are
in violation of their conditions of training and subject to repayment of the training
costs. When USAID sends a participant to the U.S. for training, USAID agrees to
pay for training to be used in the home country, and the participant agrees to
complete the training and apply the training in the home country. A participant
who does not return to their home country to apply the USAID funded training
has an implied obligation to repay the USAID funds expended for training costs.

USAID/Egypt attempted to enforce training agreements made with participants by
issuing bills of collection amounting to $110,013 for 11 of its 21 non-returnees
who had a U.S. address. The other non-returnees incurred training costs of
$230,173 for which the Mission had not issued bills of collection. This occurred
because the Mission was not aware of the whereabouts of the non-returnees.

Of the 21 non-returnees, 1 received training of one year or more for which
USAID/Egypt paid $87,662. The remaining non-returnees received training for
less than a year.



                                                                                  11
The lack of an address should not prevent the Mission from issuing bills of
collection. USAID’s regulation on Claims Collection, found in Title 22 Part 213
of the Code of Federal Regulations, details the process for collection and disposal
of debts. In brief, USAID issues a bill of collection to the debtor’s last known
address and, if this is not sufficient, the claim is referred to the Financial
Management Service of the Department of Treasury. This organization will then
pursue the claim. Therefore, we make the following recommendation:

       Recommendation No. 3: We recommend that the Director,
       USAID/Egypt recover the amount of $230,173 plus
       interest from the non-returnees who have not previously been
       billed.

What additional actions should USAID/Egypt take to meet new
requirements for selecting, monitoring, and reporting on participants
training in the United States?

In addition to the matters discussed previously in this report, USAID/Egypt
needed to update Mission Order 253 “Participant Training”. Following is a
discussion of items that the Mission needed to address in such guidance to
improve management and control of this program.

In December 2002, the Department of Justice and the Immigration and
Naturalization Service (now Bureau of Citizenship and Immigration Services)
issued new regulations regarding J-1 visas. These regulations require USAID and
all other J-1 visa sponsors to electronically input visa application data into the
Student and Exchange Visitor Information System by February 15, 2003. This
system then verifies the data and allows sponsors to print J-1 visa applications.
The regulations also require that sponsors update data regarding the participant’s
status and location on a “real-time” basis through the training period.

To implement these changes, USAID published a document titled “The Complete
Guide-USAID Visa Compliance” in April 2003. This guidance instituted more
centralized control over USAID’s participant training activities. Under the new
process, each participant trainee’s sponsor enters information for J-1 visa
application into USAID’s Training Results and Information Network. The
information in USAID’s Training Results and Information Network is
automatically fed into USAID’s Visa Compliance System, a secure web-based
system which facilitates data interchange between USAID’s Training Results and
Information Network and the Student and Exchange Visitor Information System.
The application data must be reviewed by a U.S. citizen on USAID’s staff at the
mission level and, if approved, is forwarded to USAID/Washington for
submission to Student and Exchange Visitor Information System.




                                                                                12
             USAID/Egypt had a United States citizen on the Mission’s staff review each J-1
             visa application. An applicant was only approved if his or her file contained
             documentation of (1) health and accident insurance coverage, (2) medical
             eligibility, and (3) proficiency in English. Using this new process between
             February 14, 2003, and April 24, 2003, USAID/Egypt had 19 J-1 visas approved
             without experiencing major difficulties.

             USAID/Egypt complied with these requirements and had an effective J-1 visa
             process, but the Mission needed to consider revising the Mission Order.



Management   In response to our draft report, USAID/Egypt provided written comments that are
Comments     included in their entirety as Appendix II.
and Our
             Regarding Recommendation No. 1, a management decision has been made and
Evaluation   final action is pending. The Mission agreed that procedures should be
             implemented to ensure maintenance of complete documentation in the participant
             files, particularly the required Individual Taxpayer Identification Numbers. Prior
             to this audit, the Mission relied on a contractor in the United States to maintain
             documentation of the participants’ Individual Taxpayer Identification Numbers.
             The Mission has directed that documentation of these numbers be maintained at
             the USAID/Egypt. Because the contractor has yet to provide the complete
             documentation to the Mission, final action has not yet taken place.

             Regarding Recommendation No. 2, a management decision has been made and
             final action is pending. The Mission agreed that procedures should be developed
             and implemented to verify and document participants’ return to Egypt. The
             Mission directed that all participants must attend a reentry meeting upon return to
             Egypt. Any participant who failed to attend his or her reentry within one month
             of the scheduled meeting date would be deemed a non-returnee. The Mission
             planned to report non-returnees to USAID/Washington on a quarterly basis. These
             procedures will be detailed in an amendment to Mission Order 253.

             This audit determined that participants were reported as non-returnees only when
             the Mission had knowledge that they had failed to return to Egypt contrary to
             ADS 253 which says that a participant becomes a non-returnee upon exceeding
             the agreed return date. Because the Mission’s new policy corrected this
             verification and documentation of non-returnees weakness, a management
             decision ha s been made. Because Mission Order 253 has not yet been amended to
             reflect the new policy, final action has not yet taken place.

             Regarding Recommendation No. 3, a management decision has been made and
             final action is pending. The Mission issued bills of collection for all known non-
             returnees. USAID’s Recommendation Final Action (Closure) Procedures of April
             2003 (ADS 595.3.1.6d), say that “When a recommendation involves a monetary
             recovery, the basis for recovery will be documentary evidence reflecting one of


                                                                                             13
three basic methods used to satisfy a debtor’s indebtedness….The issuance of a
Bill for Collection is not sufficient for recommendation final action. ” Final action
requires recovery of the funds, referral of the debt to the Department of Treasury,
or the write off of the debt as uncollectible. Therefore, a management decision
has been made but final action has not taken place.




                                                                                  14
                                                                                      Appendix I

Scope and     Scope
Methodology
              We conducted this audit as part of a worldwide audit of USAID’s participant
              training activities. This audit was conducted in accordance with generally
              accepted government auditing standards. The audit was designed to answer the
              following questions:

                 •    Has USAID/Egypt complied with selected requirements for
                      administering participant training conducted in the United States?

                 •    What have been the non-returnee rates for overseas participants from
                      USAID/Egypt who were trained in the United States, and did
                      USAID/Egypt take appropriate actions when participants failed to
                      return to their home countries?

                 •    What additional actions should USAID/Egypt take to meet new
                      requirements for selecting, monitoring, and reporting on participants
                      training in the United States?

              To answer these questions, we reviewed training records for all participant
              trainees from Egypt sent to the United States from October 1999 through April
              2003. With respect to non-returnee rates, however, we reviewed records for the
              period from October 1998 through April 2003. Where appropriate, we tested the
              management controls relevant to participant training activities such as the use of
              J-1 visas, the maintenance of participant trainee records, and the reporting of non-
              returnees to the appropriate United States government agencies.

              In addition, we interviewed officials from USAID/Egypt, United States
              Embassy/Cairo and USAID/Egypt’s contractor who were involved with
              participant training activities in Egypt. We conducted the audit fieldwork from
              May 5 to July 28, 2003, in Cairo, Egypt.

              Methodology

              To answer the first objective, we reviewed USAID/Egypt’s participant training files
              for a judgmental sample of 42 of the 1,860 participants sent to the United States in
              fiscal year 2002. We also reviewed USAID’s directives and guidance that were
              pertinent to the program and reviewed USAID/Egypt’s mission directives. We
              interviewed officials from USAID/Egypt who were involved in participant training
              activities, and officials from the United States Embassy in Cairo who represented the
              Security Office and the Consular Office. Finally, we interviewed officials from and
              reviewed the participant training files of USAID/Egypt’s centralized participant
              training contractor. We reviewed reports generated from the Training Results and




                                                                                                15
Information Network database, and discussed problems and difficulties with staff at
the Mission and the centralized participant training contractor.

To determine the non-returnee rate of Egyptians trained in the United States and
whether USAID/Egypt took appropriate actions when participants failed to return to
their home countries, we reviewed data from USAID/Egypt and the centralized
participant training contractor for the period from fiscal October 1998 to April 2003.
We also interviewed officials from the United States Embassy in Cairo.

To answer the first objective, our threshold for a qualified opinion was a 5 percent
error or noncompliance rate, and the threshold for an adverse opinion was 10
percent. Setting thresholds for the second and third objectives was not necessary
as they were descriptive in nature.




                                                                                   16
                                                                              Appendix II


Management
Comments


                                                         March 9, 2004


MEMORANDUM


To:          RIG/Cairo, Darryl T. Burris

From:        USAID/Egypt Deputy Director, Mary C. Ott //Signed//

Subject:     RIG/Cairo Draft Audit Report dated January 21, 2004 of
             USAID/Egypt Participant Training Activities

     The USAID/Cairo offices responsible for participant training and Financial
Management appreciate the professional and collegial approach to this audit by the
RIG/Cairo Office. Following is the Mission’s response to the three audit
recommendations:

        Recommendation 1. We recommend that Director USAID/Egypt, develop and
        implement procedures to maintain complete documentation in USAID/Egypt
        files for all future participants in accordance with Automated Directive
        System Chapter 253.

       Response: The Mission agrees that procedures should be implemented to ensure
maintenance of complete documentation in the participant files, particularly the required
Individual Taxpayer Identification Numbers (ITINs). As noted in the subject report, the
ITINs are currently maintained by and available from the Washington office of the
centralized participant training contractor in compliance with ADS 253. However, we
agree that having the ITINs for participants available at the USAID/Egypt Mission would
better facilitate the issuance of bills for collection for non-returnees; the Mission has
recently requested and received a list of the ITINs for U.S. based trainees.




                                                                                       17
      To facilitate the collection of the ITINs under reduced staffing levels and a
decentralized participant training program, the following procedures will be followed:

      o The contract with the current participant training management contractor states
        that they must keep records, including ITINs, in compliance with ADS 253.
        Any future contracts/agreements with entities managing participant training
        activities will, likewise, include the same requirement.

      o USAID/Egypt Activity Manager(s) handling participant training activities
        sponsored by their respective offices will be responsible for obtaining from the
        contractor, at least quarterly, an updated list of participants and their ITINs and
        updating the participant training files with this information.

      o The responsibilities of the USAID/Egypt Activity Manager(s), including those
        with respect to the maintenance of ITINs, will be described in an amendment to
        Mission Order 253. The amendment to Mission Order 253 is scheduled to be
        completed by September 30, 2004.

        It is important to note that USAID/Egypt was notified only recently by the current
participant training contractor that some applications for ITINs were rejected by the
Internal Revenue Service (IRS). The contractor has informed the Mission that they have
received no response from the IRS to their repeated requests for information on the
rejections and that they are pursuing the issue through their tax-filing department, which
is in the process of formally petitioning the IRS regarding the rejected ITIN applications.
The USAID/Washington office responsible for world-wide participant training
(EGAT/ED) has been notified by USAID/Egypt and requested to investigate this
problem.

      For the time-being, therefore, the lists of participants’ ITINs to be provided by the
contractor to USAID/Egypt will include either the participant’s ITIN OR a notation that
the application was rejected, along with a copy of the rejection notice.

      In view of the above, the Mission believes that a management decision has
been made and requests RIG/Cairo to resolve the recommendation upon the final
report issuance. Closure will be requested from USAID/W upon submission of
evidence that final action has been implemented.




                                                                                          18
      Recommendation 2. We recommend that the Director, USAID/Egypt develop
      and implement procedures for verifying and documenting participants’
      return to Egypt in accordance with Automated Directive System Chapter 253
      .

       Response: We agree that the Mission should develop and implement procedures
for verifying and documenting participants’ return to Egypt, including steps to ensure that
for non-returnees the required notification is made to the Department of Homeland
Security, as well as to USAID/Egypt/FM for the issuance of bills for collection.
Mandated downsizing of Mission staff and the planned transition from a centralized
contractor approach across all Mission activities, to multiple contractor implementing
participant training, present a challenge in implementing uniform procedures.

      To ensure the proper tracking of returning and non-returning participants, the
following steps will be taken:

   o USAID/Egypt will require that the contractor(s) responsible for managing the
     participant training continue the current practice of arranging re-entry meetings for
     all training programs, prior to participants’ scheduled return to Egypt.

   o Should a participant fail to attend the scheduled re-entry meeting or to reschedule
     the meeting within a reasonable time period, the responsible contractor will make
     every effort to contact the individual with the contact information available
     (telephone, address, e-mail).

   o If the contractor is unable to contact or meet with the participant within one month
     from his originally scheduled meeting date, or if information becomes available
     confirming that the participant has not returned to Egypt, the participant will be
     considered to be a non-returnee, and this fact will be communicated by the
     contractor(s) to the appropriate Activity Manager at USAID/Egypt.

   o Any participant who fails to attend his/her reentry within the one-month period
     will be deemed ineligible to receive any funding from the USAID/Egypt Follow-on
     Program.

   o A USAID/Egypt employee in the HDD/ET Office will be assigned the
     responsibility of reporting non-returnees to USAID/Washington (EGAT/ED) and
     will, on a quarterly basis, provide a list of non-returnees to USAID/Egypt FM/FO
     for the issuance of bills for collection.



                                                                                           19
   o The above procedures will be detailed in an amendment to Mission Order 253.

      In view of the above, the Mission believes that a management decision has
been made and requests RIG/Cairo to resolve the recommendation upon the final
report issuance. Closure will be requested from USAID/W upon submission of
evidence that final action has been implemented.


      Recommendation 3. We recommend that the Director, USAID/Egypt recover
      the amount of $230,173 plus interest from the non-returnees who have not
      previously been billed.

        Response: During FY2003 upon request of RIG/I, USAID/Egypt/FM issued 11
bills for collection for individuals identified as non-returnees of the participant training
program. Of the 11 BFCs issued, three of them and their related follow up bills were
continually returned to the Mission due to non-identification of the debtors' addresses.
On October 30, 2003 three BFCs were referred to the CFO in USAID/W for write off,
which were approved and the debts subsequently written off. Since FM received no
response on the other eight BFCs issued, these bills with accumulated interest were
referred to M/FM/A at USAID/W on September 30, 2004 to be transferred to the U.S.
Treasury to effect collection.

      Recently, upon request by HDD/ET, the centralized contractor supplied
USAID/Egypt with the last known addresses for 12 additional non-returnees. BFCs
amounting to $230,173 were issued to the 12 individuals on February 16, 2004 (copies
attached). These BFCs and any subsequent bills to non-returnees which are not collected
within the period required in accordance with ADS 625, (90 days for those with ITINs
and 180 days for those without ITINs), will be referred with accumulated interest to the
U.S. Treasury via USAID/W/M/FM.


     In view of the above, the Mission believes that a management decision has
been made by issuing the $230,173 in bills for collection, thus, requests resolution of
Recommendation No. 3 upon final report issuance.




                                                                                               20
